    FOLLOW-UP AUDIT OF THE
OFFICE OF DEFECTS INVESTIGATION

 National Highway Traffic Safety Administration


         Report Number: MH-2004-088
       Date Issued: September 23, 2004
                                                                Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Follow-up Audit                                     Date:    September 23, 2004
           of the National Highway Traffic Safety
           Administration’s Office of Defects Investigation
           Report No. MH-2004-088

  From:    Alexis M. Stefani                                                  Reply to
                                                                              Attn. of:   JA-40
           Principal Assistant Inspector General
             for Auditing and Evaluation

    To:    National Highway Traffic Safety Administrator

           This report presents the results of our follow-up audit of the National Highway
           Traffic Safety Administration (NHTSA) Office of Defects Investigation’s (ODI)
           implementation of the Transportation Recall Enhancement, Accountability, and
           Documentation (TREAD) Act.1 In January 2002, we reported that NHTSA faced
           challenges in fully implementing the TREAD Act and improving its ability to
           identify potential safety defects.2 The report recommended that NHTSA: (1)
           adhere to rulemaking milestones; (2) ensure its new defects information system
           would meet NHTSA’s needs by having an independent entity validate and verify
           the new system, and (3) establish procedures for identifying defects, create a peer
           review panel, and train personnel to ensure consistency in recommending and
           opening defect investigations.

           The objectives of this audit were to evaluate the progress NHTSA has made in
           implementing the recommendations from our January 2002 report. Specifically,
           we examined the status of NHTSA’s effort to: (1) implement the TREAD Act
           rulemakings; (2) ensure ODI has the appropriate information system infrastructure
           and processes in place to promptly identify potential defects as intended by the
           TREAD Act; and (3) establish processes to ensure consistency in recommending


           1
               Public Law No. 106-414, 114 Stat. 1800 (2000).
           2
               Report Number MH-2002-071, “Review of the Office of Defects Investigation,” U.S. Department of
               Transportation, Office of Inspector General, January 3, 2002. OIG reports can be accessed on our
               website: www.oig.dot.gov.
                                                                                                        2

and opening defect investigations in order to ensure the highest priority cases are
investigated. Details of our audit scope and methodology, and prior audit
coverage are in Exhibits A and B, respectively.

RESULTS IN BRIEF
Since our January 2002 report, NHTSA has made significant progress in
implementing the 22 requirements of the TREAD Act, and developing a new
safety defects information system called ARTEMIS3 to receive manufacturer early
warning reporting (EWR) information. EWR information includes the number of
vehicles, tires, and child restraints produced; claims and notices involving death,
personal injury, and property damage caused by possible safety defects; and the
number of paid warranty claims. It also includes reports from manufacturers’
employees, representatives, and dealers related to product defects and consumer
complaints. A more detailed description of the EWR information and ARTEMIS
is provided in Exhibits C and D, respectively.

In developing ARTEMIS, NHTSA encountered some serious problems requiring
the attention of senior officials in the Office of the Secretary, including the
Departmental Chief Information Officer (CIO), as well as senior NHTSA officials.
For example, the ARTEMIS development effort proceeded without a systems
development strategy, the proper sequencing of events and milestones, and reliable
cost and schedule estimates. Consequently, development cost estimates increased
from $5.35 million to $9.4 million4 (76 percent) and the schedule has been
extended four times from October 2002 to July 2004. We also found that an
additional $17.12 million NHTSA identified as future operations and maintenance
(O&M) costs for ARTEMIS for fiscal years (FY) 2005 through 20105 could not be
verified. However, after we questioned how these costs were derived, NHTSA
reduced the amount to $11.46 million and the period covered from FYs 2005
through 2009. The budget reduction totaled $2.61 million through FY 2009 and
$5.66 million through FY 2010, thus creating an opportunity to put funds to better
use.

Although ARTEMIS became fully operational in July 2004, it does not have the
advanced analytical capabilities originally envisioned6 to help point analysts to

3
    Advanced Retrieval (Tire, Equipment, Motor Vehicle) Information System.
4
    NHTSA also estimated spending an additional $3.8 million in operations and maintenance costs for the
    phases of ARTEMIS that have been incrementally deployed, for a total of $13.2 million through July 31,
    2004.
5
    NHTSA’s planned completion date for ARTEMIS in both its original and revised business case is
    September 30, 2009; however, NHTSA’s original business case contained conflicting dates, including a
    table that attributed $3.05 million of anticipated O&M expenses to FY 2010.
6
    As described by the NHTSA Executive Director in testimony presented on April 26, 2001, before the
    House Committee on Appropriations, Transportation Subcommittee.
                                                                                    3

potential safety defects. For example, the system cannot automatically notify
analysts if consumer-reported complaints and manufacturer-reported warranty
claims are both increasing due to vehicle steering problems. According to
NHTSA officials, delays in acquiring these capabilities will prevent NHTSA from
obtaining full value from the EWR information manufacturers report.

While ARTEMIS will automatically point analysts to deaths that manufacturers
report so that trends in small numbers of fatalities can be detected, ARTEMIS will
not, as currently developed, link deaths to an alleged defect or identify
relationships between the categories of EWR information. In short, ARTEMIS
cannot perform more advanced trend and predictive analyses that were originally
envisioned as being needed to identify defects warranting investigation.
Nevertheless, NHTSA now has much more information from which to identify
potential safety defects than it ever had before.

NHTSA plans to separately acquire more advanced analytical capabilities to
complement ARTEMIS and has published a draft data analysis plan presenting a
“high-level” description of these capabilities. In addition, NHTSA is currently
working with the Federal Aviation Administration (FAA) and other organizations
to develop tools to review and analyze EWR reports submitted by manufacturers.
However, NHTSA has not finished defining the capabilities needed, identified all
software needed to analyze the EWR information, outlined associated costs, or a
schedule for implementing these capabilities.

Ensuring that the EWR information is thoroughly and consistently analyzed to
identify potential safety defects is especially critical since in July 2003 NHTSA
announced it would publicly release only the claims and notices involving death,
personal injury, and property damage, and production numbers for light vehicles.
NHTSA decided not to release all other EWR information relating to warranty
claims, consumer complaints, and field reports because it believes doing so could
cause competitive harm to manufacturers or impair the Government’s ability to
obtain like information in the future, or both.

As a result of NHTSA’s decision, the public will have access to only a portion of
the EWR information being reported by manufacturers prior to NHTSA formally
opening a defect investigation. Since only NHTSA will have access to the
majority of the EWR information, it is critical that it establish procedures to ensure
congressional concerns expressed in September 2000 about NHTSA’s ability to
use the data it possessed to spot trends related to failures in Firestone tires have
been addressed. Consequently, much will be riding on the ability of NHTSA’s
eight analysts, who are responsible for reviewing the large volume of EWR
information and drawing conclusions about potential safety defects. This will be
especially true until such time as more advanced analytical capabilities are
acquired to complement ARTEMIS.
                                                                                                           4

In summary, our audit found that:

Most of TREAD Act Rulemakings Are Completed. To date, NHTSA has
successfully implemented 20 of the 22 TREAD Act requirements, including 13 of
the 15 required rules. NHTSA is rewriting the Tire Pressure Monitoring System
rule it completed in June 2002, which was overturned on August 6, 2003, by the
U.S. Court of Appeals for the Second Circuit. In addition, on June 2, 2004, the
NHTSA Administrator notified Congress that he had decided against pursuing the
remaining rulemaking on Certification Labels implementing Section 9 of the
TREAD Act. NHTSA issued the “significant” rules7 in an average of 2.1 years8,
which is considerably quicker than the U.S. Department of Transportation (DOT)
average of 3.0 years.9 NHTSA also met 58 percent of the TREAD Act rulemaking
statutory deadlines, greatly exceeding the DOT average of 27 percent.10

ARTEMIS Cost and Schedule Have Significantly Increased. NHTSA has
completed ARTEMIS, but not without significant cost increases and schedule
delays. Since the project’s inception in January 2001, total cost estimates for full
system development have increased from $5.35 million in June 2001 to $9.4
million in March 2004. Schedule estimates increased from 21 to 42 months during
the same time period. Corrective actions were taken beginning in April 2003 to
limit additional cost and schedule increases, in part, after our audit raised
questions concerning poor project planning and execution of the development
effort. In addition, MITRE Corporation, which had been hired to provide
oversight assistance, informed the NHTSA Administrator of the extraordinarily
high cost estimate for project completion, and Volpe announced it needed more
money to continue work on the project. The actions taken by NHTSA included
stopping work on the project until a full set of system requirements and a better
cost estimate were developed, and delaying acquisition of pointer-type analytical
capabilities.

In February 2004, NHTSA identified $17.12 million in anticipated O&M expenses
for ARTEMIS for FYs 2005 through 2010. After we questioned how these costs
were derived, in March 2004, NHTSA reduced this amount to $11.46 million, or

7
     These are rules that are costly, controversial, or of substantial public interest. Significant rules are
     reviewed by the DOT Office of the Secretary and the Office of Management and Budget prior to
     issuance.
8
     This average includes the time to complete the rulemaking on the Tire Pressure Monitoring System,
     which was overturned on August 6, 2003 by the U.S. Court of Appeals for the Second Circuit.
9
     The Department average is calculated from a “snapshot” of significant rulemaking activities, as cited in
     the DOT Office of the Assistant General Counsel for Regulation and Enforcement, “Report on DOT
     Significant Rulemakings,” between October 2002 and September 2003.
10
     This average was taken from January through June 2003 data reported in Report Number SC-2004-035,
     “Audit of DOT’s Rulemaking Process and Tracking System,” Office of Inspector General, March 2,
     2004.
                                                                                          5

by 33 percent, and the period covered to FY 2009. While the $11.46 million is a
more reasonable estimate, portions of the revised estimate still contain weak
justification. For example, NHTSA identified $537,356 in FY 2005 maintenance
costs for “security” but $211,956 was undefined.

ARTEMIS Captures Manufacturer Information, But Provides Only a
Limited Analytical Capability for “Early Warning” Analysis. NHTSA
deployed a portion (Phase I) of ARTEMIS in December 2002 replacing two
legacy safety defects information systems.11 NHTSA also finished developing the
capabilities to receive and store manufacturers’ aggregate statistical EWR
information (Phase IIA) and foreign recall information submissions (Phase IIB) in
October 2003, and December 2003, respectively. The capability to receive and
process field reports was completed in March 2004 (Phase IIC). Full ARTEMIS
deployment, including remediation of remaining Phase I problems; public Web
site operations for EWR information; the actual receipt of field reports; and
completion of all acceptance testing and systems documentation was completed by
July 30, 2004.

Although ARTEMIS has been completed, it does not have the analytical
capabilities originally envisioned to help analysts sort through the large volume of
EWR information anticipated from manufacturers and point them towards
potential safety defects. As currently developed, ARTEMIS automatically points
analysts to all deaths that manufacturers report so that even trends in small
numbers of fatalities can be detected, which partially addresses concerns
expressed by the Senate over NHTSA’s ability to spot trends related to failures in
Firestone tires. ARTEMIS also permits analysts to retrieve field reports based on
vehicle or equipment specifications. However, ARTEMIS cannot perform more
advanced trend analyses needed to find patterns and subtle relationships among
the various types of EWR information to point analysts to potential defects
warranting investigation. For example, the system cannot automatically notify
analysts if consumer-reported complaints and manufacturer-reported warranty
claims are increasing due to vehicle steering problems.

In June 2003, senior NHTSA officials decided they could more effectively acquire
these advanced analytical capabilities outside of the ARTEMIS development
effort. NHTSA has developed a draft data analysis plan and is working with FAA
and other organizations to determine how best to provide the needed capabilities,
including purchasing commercially available software. However, NHTSA has not
identified all of the software needed to analyze the EWR information, outlined the
associated costs, or developed a schedule for implementing these capabilities.


11
     The Defect Information Management System (DIMS) and the Electronic Document Information
     Management System (EDIMS).
                                                                                                         6

Until the capabilities are implemented, analysts will not be able to fully utilize the
EWR information to help identify potential safety defects.

Safety Defect Screening and Investigation Process has Been Improved but
More Needs to be Done. Since our 2002 report, NHTSA has established a peer
review panel for reviewing safety defect issues and determining whether or not to
open safety defect investigations. The review panel has improved the defect
screening process by documenting all potential investigations, and if an
investigation was not opened, the reasons why. However, NHTSA has not
finalized screening procedures to ensure that analysts identify potential defects for
the peer review panel’s consideration because it has been waiting to begin
receiving the EWR information before determining how best to revise its
procedures for evaluating the information.

It is important that NHTSA finalize these procedures as soon as possible given the
large volume of field reports it began receiving in June 2004. Without these
procedures, analysts will not be able to thoroughly and consistently consider all
EWR and other sources of information, such as technical service bulletins, when
identifying potential defects for peer review panel consideration. The completion
of procedures for analyzing defects, which NHTSA agreed to accomplish in
response to our January 2002 report, is especially important given that it is
uncertain when “pointer-type” analytical capabilities originally envisioned as part
of ARTEMIS will be fully developed and deployed. Additionally, NHTSA needs
to finalize and train its analysts on these new procedures as soon as possible.

Only Limited EWR Information Will be Publicly Released for Analysis by
Others. NHTSA has issued a final rule limiting public disclosure of the
information submitted by manufacturers. Based on its interpretation of the
TREAD Act and Freedom of Information Act (FOIA),12 NHTSA decided that it
will release only information related to claims and notices involving death and
personal injury, the number of property damage claims, and production numbers
for light vehicles. NHTSA determined that all other information is exempt from
public release prior to the formal opening of a defect investigation. This includes
information related to warranty claims, consumer complaints, field reports,13 and
all other production numbers. NHTSA reasoned that such release may cause
manufacturers competitive harm, impair the Government’s ability to obtain like
information in the future, or both. For example, NHTSA believes release of the
information could lead to less candor from field personnel, resulting in less


12
     The FOIA requires that all Federal agencies disclose records to the public unless they meet certain
     exemptions or exclusions specified by the FOIA.
13
     Depending on the manufacturer, a field report can range from a technical investigation of a problem
     detected through warranty, consumer complaint, or other data available to the company (see 68 Fed. Reg
     44,223, dated July 28, 2003).
                                                                                                7

reliable information, and would discourage manufacturers’ marketing efforts that
lead to more complete and useful information.

Some manufacturers and public interest groups disagree with NHTSA’s
interpretation of what EWR information is subject to public disclosure. For
example, in its comments on NHTSA’s proposed rule limiting the public release
of EWR information, the Rubber Manufacturers Association opined that until the
opening of a formal defect investigation, all EWR information should be exempt
from public disclosure. In contrast, certain public interest groups, such as Public
Citizen,14 maintain that the public should not be required to wait until NHTSA
formally opens an investigation to have access to EWR information.

NHTSA’s interpretation of the TREAD Act and FOIA and their application to the
public release of EWR information in now a matter before the courts. It is our
opinion, however, that limiting the release of EWR information makes it more
critical that NHTSA ensures it has an effective system for thoroughly and
consistently analyzing the information to protect the public from safety defects.


RECOMMENDATIONS
To move ahead with the use of EWR information for opening defects
investigations, we recommend that the NHTSA Administrator:

1. Ensure the March 2004 $11.46 million O&M cost estimate for FYs 2005
   through 2009 is adequately supported.

2. Revise the EWR data analysis plan to better define the advanced analytical
   capabilities needed, identify the software NHTSA intends to purchase and the
   associated costs, and establish a schedule with milestone dates for obtaining
   these capabilities.

3. Establish milestones for completing procedures to incorporate EWR
   information into the defects screening process and train defect analysts on the
   new procedures to provide reasonable assurance that decisions relating to the
   opening of safety defect investigations are based on thorough and consistent
   analyses of all available defects information.




14
     A national, nonprofit consumer safety advocacy organization founded by Ralph Nader in 1971 to
     represent consumer interests in Congress, the Executive Branch, and the Courts.
                                                                                  8


MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
A draft of this report was provided to the NHTSA Administrator on July 9, 2004.
In its September 15, 2004 response to the draft report (see Appendix), NHTSA
concurred with the recommendations, stating that it is taking appropriate actions to
implement them. However, NHTSA’s comments did not explain what those
actions were or when they would be implemented. Therefore, we are requesting
more details on the specific steps that NHTSA will take and the time frames for
implementing each of the three report recommendations.

NHTSA also expressed concern that the report does not represent an accurate
discussion of the agency’s estimates of future ARTEMIS O&M costs, overstates
the role of EWR data in the identification of safety defects, and does not
sufficiently describe the process used by the agency in developing tools to analyze
the EWR data. We believe the report accurately discusses these issues and have
addressed each of NHTSA’s concerns on pages 18 through 21 of this report.


BACKGROUND
Congress passed the TREAD Act in October 2000 to address concerns that the
motoring public should be better protected from future “Firestone incidents.”
Congress was specifically concerned about the sufficiency of defect information
and NHTSA’s use of this information to identify potential safety defects.

The Act requires the DOT, through NHTSA, to complete 15 rulemakings and
7 studies, reports, and programs in areas such as tire standards and the safety of
child restraints. One of the key features of the Act is the requirement for vehicle
and equipment manufacturers to routinely submit EWR information, such as
property damage claims, communications with customers, and notices of fatalities
or serious injuries caused by possible safety defects in vehicles to NHTSA.
Manufacturers will submit five categories of information: (1) production data; (2)
claims and notices involving death, personal injury, or property damage; (3)
information regarding warranty claims; (4) field reports about performance
problems; and (5) consumer complaints. To receive and analyze the EWR
information submitted by manufacturers, NHTSA established a new safety defects
information system called ARTEMIS.

ARTEMIS was developed by the Research and Special Programs Administration’s
(RSPA) Volpe National Transportation System Center (Volpe). Volpe and its
subcontractor, Computer Sciences Corporation (CSC), were to provide project
management and technical expertise for the development and integration of
ARTEMIS with NHTSA’s defects screening and investigation process, while
NHTSA retained overall responsibility for the development effort.
                                                                                                     9


RESULTS

NHTSA Has Completed Most of the TREAD Act Requirements
NHTSA has made significant progress implementing the TREAD Act, which
imposed 22 separate requirements on NHTSA—the issuance of 15 rulemakings
and 7 reports, studies, and programs. Of the 22 requirements, NHTSA has
completed 20, including 1315 of the 15 rulemakings, and the 7 reports, studies, and
programs. NHTSA is rewriting the Tire Pressure Monitoring System rule it
completed in June 2002, which was overturned by the U.S. Court of Appeals for
the Second Circuit on August 6, 2003. In addition, on June 2, 2004, the NHTSA
Administrator notified the appropriate congressional committees16 that he had
decided against pursuing the remaining rulemaking on Certification Labels to
implement Section 9 of the TREAD Act.17 See Exhibit E for a detailed listing of
these requirements and their completion status.

Completed Requirements.              Of the 15 required rulemakings, 6 were
categorized as “significant” rules. NHTSA took an average of 2.1 years to issue
these rules, which is considerably quicker than the DOT average of 3.0 years.
Table 1 provides details on the significant rules required by the TREAD Act and
their completion times. Although Table 1 reflects the Tire Pressure Monitoring
System rule as being completed in June 2002, as noted above, NHTSA is rewriting
this rule based on a ruling from the U.S. Court of Appeals for the Second Circuit.




                                         Table 1
             Time to Complete Significant Rules Required by the TREAD Act
                                                             Completion  Years to
     Section                 Requirement
                                                                Date    Complete
       3(a)      Report on Defects in Foreign Countries                    10/11/02           1.9
      3(b)       Early Warning Reporting Requirements                      07/10/02           1.7


15
     One rule, regarding Section 13 tire pressure warnings, which was completed on June 15, 2002, was
     subsequently overturned by the U.S. Court of Appeals for the Second Circuit and is currently being
     rewritten by NHTSA.
16
     The House Committee on Energy and Commerce, and the Senate Committee on Commerce, Science and
     Transportation.
17
     This decision was made because Section 9 of the TREAD Act does not require NHTSA to engage in
     rulemaking to implement it.
                                                                                              10


        10        Endurance and Resistance Standards for Tires               06/26/03   2.6
        11        Improved Tire Information                                  11/18/02   2.0
        13        Tire Pressure Monitoring System                            06/05/02   1.6
        14        Improving the Safety of Child Restraints                   06/24/03   2.6
                  Average Time for Completion                                           2.1
     Source: OIG analysis of NHTSA Final Rules published in the Federal Register.

Of the 15 required rulemakings, 12 had statutory deadlines, of which NHTSA met
7 (58 percent)—greatly exceeding the DOT average of 27 percent. These
deadlines consisted of both interim and final deadlines—NHTSA met three of four
interim deadlines and four of eight final deadlines. The statutory deadlines that
were not met involved complex and controversial requirements, or were being
addressed concurrently. For example, NHTSA personnel were responsible for
concurrently implementing six separate TREAD Act requirements—two on tire
standards and information, three on child restraints, and one on the rollover test
program. Of these requirements, two were completed on time and four were
completed an average of 9.5 months beyond their statutory deadlines.

The Tire Pressure Monitoring System rule is an example of a complex and
controversial requirement. After the Office of Management and Budget (OMB)
reviewed the draft final rule, it returned the rule to NHTSA for reconsideration,
stating that the draft rule and regulatory impact analysis did not adequately
demonstrate that NHTSA had selected the best available method of improving
overall vehicle safety. The reconsideration of alternative methods was the primary
reason the issuance of the final rule was delayed beyond the statutory deadline.
The final rule, published in June 2002, was subsequently challenged in court18 by
consumer advocacy groups who claimed the rule was arbitrary and capricious and
did not meet the law’s requirements. The U.S. Court of Appeals for the Second
Circuit subsequently overturned the rule on August 6, 2003. On September 16,
2004 NHTSA published a revised version of this proposed rulemaking in the
Federal Register, and solicited public comments due no later than November 15,
2004.

Initial ARTEMIS Cost and Schedule Estimates Were Not Reliable
NHTSA has completed its new safety defects information system, ARTEMIS.
However, the system development effort encountered significant cost increases
and schedule delays. As shown in Table 2, the initial cost estimate for the
development of ARTEMIS increased from $5.35 million in June 2001 to $9.4

18
     Public Citizen v. Mineta, 340 F.3d 39 (2nd Cir. 2003).
                                                                                  11

million (76 percent) in March 2004. Project schedule estimates also doubled since
the project’s inception.

                                 Table 2
                Growth in ARTEMIS Cost and Schedule Estimates
                                             Date Estimate Was Prepared
                                  June      August      February   June   March
                                  2001       2002         2003     2003   2004
Cost Estimate ($ in Millions)     $5.35          $6.1     $7.1     $9.4   $9.4
Estimated Time to Complete
                                    21           26       28       40      42
ARTEMIS (Months)
 Source: NHTSA and Volpe Project Documentation

Until June 2003, cost estimates for ARTEMIS were not developed using generally
accepted cost estimating techniques. For example, none of the prior estimates
were based on detailed system requirements. According to senior Volpe and CSC
managers, Volpe cost estimates were based on “high-level” requirements,
“experience on the project,” and “professional judgment.” In addition, these
estimates were difficult to compare because, for example, each was developed by
different people using different assumptions, and sometimes with little
documentation. As a result, none of the prior estimates were reliable for decision-
making purposes.

The project schedule has also doubled since inception. When initiated in
January 2001, the project was estimated to be completed in 21 months, or by
October 2002. As shown in Table 2, the schedule has been extended four times,
with actual project completion taking 42 months. NHTSA completed ARTEMIS
deployment, including remediation of remaining Phase I problems; establishment
of the public Web site for EWR information; receipt of field reports; and
completion of all acceptance testing and systems documentation by July 30, 2004.

To compensate for these delays and in response to petitions from manufacturers,
NHTSA extended the deadline for receiving the manufacturers’ first quarterly
EWR aggregate statistical information from August 29, 2003, as originally
specified in the EWR rule, to December 1, 2003. Additionally, submission of
required historical information was also delayed from September 30, 2003 to
January 15, 2004, and the submission of field reports was postponed by an
additional 7 months from December 1, 2003 to June 30, 2004. NHTSA
subsequently met these milestones.
                                                                                                         12

Senior DOT Officials Took Action to Strengthen Oversight of the
ARTEMIS Project
On April 15, 2003, the NHTSA Administrator issued a stop-work order on
Phase II systems development in response to cost and schedule concerns regarding
the development effort, a lack of available funding for continued work on the
project, and the need to assess potential courses of action, brought to his attention,
in part, by OIG disclosures. The former Deputy Secretary and the new DOT
CIO19 also became personally involved in oversight of the development efforts,
and the preparation of an action plan for completing ARTEMIS. Exhibit F
describes the planning and oversight weaknesses that previously existed with the
development effort.

Volpe's new project manager, assigned to provide more operational experience to
the development team, worked with NHTSA officials and the DOT CIO to address
outstanding Phase I performance-related issues and finalize Phase II requirements
and acceptance criteria. The new program manager also developed a revised
project cost estimate using these requirements and generally accepted estimating
techniques, Function Points Analysis,20 as well as a bottom-up approach.21 In June
2003, Volpe completed the requirements and revised the development cost
estimate to $9.4 million.22

Because $8.3 million had been expended as of June 2003, an additional
$3.8 million was required to cover the increased cost estimate. Of this amount,
$0.4 million was provided from uncommitted funds, $1.1 million of prior year
contract recoveries from NHTSA’s Operations and Research account was
reprogrammed to fund ARTEMIS, and $2.3 million was provided from Volpe’s
risk mitigation account.23

On September 5, 2003, the Secretary of Transportation notified Congress of the
corrective actions DOT had taken to complete systems work and limit
development costs, including shifting the burden of any future cost overruns
related to Volpe program management or oversight deficiencies to the Volpe risk
19
     Appointed in March 2003.
20
     According to the Software Engineering Institute, Function Points Anaylsis has become generally
     accepted as an effective way for estimating a software project’s size, evaluating support requirements,
     and estimating system change costs.
21
     This involves subdividing the anticipated project into tasks needed to complete the work, and estimating
     the cost of each task.
22
     NHTSA also anticipated spending an additional $2.7 million for operations and maintenance costs
     associated with the phases of ARTEMIS to be incrementally deployed for a total of $12.1 million.
23
     The risk mitigation account was established on July 28, 2003 as a means to hold Volpe accountable for
     deficiencies like the ARTEMIS cost and schedule problems attributed to Volpe’s program management
     and oversight. This permanent overhead account is available to all Volpe customers with similar
     problems. The ARTEMIS project is the first project to receive funding from this account.
                                                                                                         13

mitigation account. Changes were also made to formally document these
corrective actions, as appropriate. Specifically, the General Working Agreement
between NHTSA and Volpe was amended to reflect Volpe’s assumption of
responsibility for any future cost overruns attributable to its program management
and oversight deficiencies. Additionally, the DOT CIO, NHTSA, and RSPA
officials agreed to create a formal configuration control board,24 to approve any
changes to these documents.


Support for Life-Cycle Cost Estimates Needed Improvement
In a February 13, 2004 briefing of the DOT Information Technology Investment
Review Board,25 NHTSA identified $17.12 million that it needed for ARTEMIS
O&M costs for FYs 2005 through 2009 and beyond. This funding request,
detailed in Table 3, was developed as part of NHTSA’s Capital Asset Plan and
Business Case submission to the Office of Management and Budget (OMB) for
FY 2005.

                                             Table 3
                                   Summary of Funding Requests
                                         ($ in millions)
                                                                                 FY 2009
 Category               FY 2005       FY 2006       FY 2007        FY 2008        And            Total
                                                                                 Beyond
 Maintenance              $2.50         $2.78          $2.87         $2.93          $6.04       $17.12
     Source: December 22, 2003, ARTEMIS Capital Asset Plan and Business Case.



NHTSA officials could not fully support how the estimated $17.12 million in
O&M costs were derived. For example, NHTSA identified $537,356 in FY 2005
maintenance costs for “security,” of which $211,956 was undefined. NHTSA
officials indicated they relied on Volpe to estimate the O&M costs and did not
know what process Volpe used to develop and support the estimate. Without
support for the entire O&M cost estimate, it is difficult to determine whether all of
the requested funding is reasonable.



24
     The configuration control board is responsible for managing changes to the program baseline. The role
     of the board is to review and make decisions regarding system change requests, business process
     changes, and project baseline changes.
25
     This Board, chaired by the DOT Deputy Secretary, includes the DOT Chief Financial Officer, Chief
     Information Officer, General Counsel, and the Assistant Secretary for Administration, and is
     responsible for ensuring the DOT’s information technology (IT) investments are cost-effective and
     significantly improve mission performance. To carry out this responsibility, the Board has the authority
     to approve, modify, or terminate major IT investments.
                                                                                  14

At a March 26, 2004, special meeting on the ARTEMIS development effort,
NHTSA informed the Investment Review Board that it had reduced projected
O&M costs to $11.46 million and the period covered from FYs 2005 through 2010
to FYs 2005 through 2009. The budget reduction totaled $2.61 million through
FY 2009 and $5.66 million through FY 2010, thus creating an opportunity to put
funds to better use. However, we found that NHTSA officials could not provide
supporting data to explain the significant decrease in the O&M estimates.


Advanced Analytical Capabilities Needed to Fully Evaluate EWR
Information Will Be Obtained Outside of ARTEMIS
As currently developed, ARTEMIS will automatically point analysts to all deaths
that manufacturers report so that trends in small numbers of fatalities can be
detected. This partially addresses concerns expressed by the Senate over
NHTSA’s ability to spot trends related to failures in Firestone tires. ARTEMIS
will also permit analysts to retrieve field reports based on vehicle or equipment
specifications. However, ARTEMIS cannot perform more advanced trend and
predictive analyses that were originally envisioned as being needed to identify
defects warranting investigation. For example, the system cannot automatically
notify analysts if consumer-reported complaints and manufacturer-reported
warranty claims are both increasing due to vehicle steering problems.

In June 2003, senior NHTSA officials decided these more advanced analytical
capabilities could be more effectively acquired outside of the systems
development effort. This decision was made to give NHTSA time to obtain some
experience working with the EWR information and to better understand how
different manufacturers reported the information.

In January 2004, NHTSA published a draft data analysis plan presenting a “high-
level” description of the analytical capabilities needed to analyze EWR
information. However, NHTSA has not finished defining these capabilities,
identified all software needed to analyze the EWR information, outlined
associated costs, or established a schedule for implementing these capabilities.

On May 10, 2004, NHTSA and the Federal Aviation Administration (FAA) signed
a Memorandum of Understanding in which the FAA agreed to help NHTSA
develop a prototype data system to review EWR reports submitted by
manufacturers. NHTSA is working with the FAA’s National Aviation Safety Data
Analysis Center, an experienced leader in safety-data analysis and data-
management technologies, to take advantage of this expertise and identify
advanced analytical capability options. NHTSA has also consulted with the
Consumer Product Safety Commission and others. Until advanced analytical
capabilities are implemented; however, analysts will not be able to fully utilize the
EWR information for identifying potential safety defects.
                                                                                                          15

NHTSA’s Process for Screening Defects and Opening Priority
Investigations Has Improved, but has Not Yet Fully Incorporated
Analysis of EWR Information
In January 2002, we reported that NHTSA did not have a consistent process for
identifying defects and opening defect investigations to ensure the highest priority
cases were investigated. We recommended that NHTSA: (1) develop new
procedures for analyzing defects and opening investigations; (2) establish a peer
review panel and process to ensure that data used to identify potential defects are
comprehensively and thoroughly analyzed, and that investigations are opened and
prioritized in a consistent manner; and (3) train personnel on new defect analysis
and investigative procedures. See Exhibit G for a description of the screening and
investigation process.

In response to prior OIG recommendations, NHTSA established a peer review
panel to help ensure that safety defect information is thoroughly and consistently
analyzed and to make decisions on whether defect investigations should be
opened. Establishing the peer review panel has improved the defect screening
process by documenting all potential investigations, and if an investigation is not
opened, the reasons why. However, until an advanced analytical capability is
developed and implemented, safety defect analysts will be unable to fully utilize
the EWR information. For example, NHTSA will not be able to perform data and
text mining26 of the several terabytes of EWR information anticipated from
manufacturers to find trends and identify potential defects.

In the absence of the advanced analytical capabilities, procedures to guide defect
analysts in evaluating safety defect information are essential. However, NHTSA
has not yet fully determined how to incorporate the EWR information into the
screening process because it was waiting to begin receiving the large volume of
EWR information before determining how best to revise the process.

We recognize that decisions to open investigations involve considerable
professional judgment. However, without procedures to guide analysts on how to
use the EWR information, NHTSA cannot ensure that EWR and other sources of
information, such as technical service bulletins, have been thoroughly and
consistently analyzed to determine what information should be presented for peer
review panel consideration. This situation is of particular concern because a
primary finding from Senate hearings held in September 2000, which led Congress
to pass the TREAD Act, was that NHTSA did not use the data it possessed to spot


26
     An information extraction activity designed to discover hidden facts contained in databases. Using a
     combination of machine learning, statistical analysis, modeling techniques and database technology,
     data mining finds patterns and subtle relationships in data and infers rules that allow the prediction of
     future results.
                                                                                                         16

trends related to failures in Firestone tires.27 Also, NHTSA has not yet developed
a formal training program to guide defect analysts and help ensure consistency in
safety defect screening operations as it agreed to do in response to
recommendations from our January 2002 report. NHTSA has put on hold its plans
for doing this until after it has determined how best to use EWR information
submissions from manufacturers.


NHTSA Will Publicly Release Only Some of the EWR Information
In July 2003, NHTSA issued a final rule establishing public disclosure guidelines
for EWR information submitted by manufacturers.28 There are five categories of
EWR information: (1) manufacturers’ production numbers; (2) claims and notices
(including lawsuits) involving death, personal injury, or property damage; (3)
warranty claims; (4) field reports regarding failure, malfunction, lack of durability,
or other performance problems; and (5) number of consumer complaints (see
Exhibit C for complete category definitions).

Although all of the EWR information would be available for NHTSA’s
identification of potential safety defects, NHTSA will release all information on
claims and notices (involving death, personal injury, and property damage) and
production numbers for only light vehicles prior to opening a defect investigation.
This information, representing one of five categories and part of a second category
of EWR data, is only a portion of the information to be reported by manufacturers.
NHTSA reasoned, in part, that this information was often publicly available, and,
therefore, should not be withheld from public disclosure by the FOIA. Once an
investigation is initiated, NHTSA customarily releases certain otherwise
confidential information in its possession.

Based on its interpretation of the TREAD Act and FOIA, NHTSA concluded that
information related to warranty claims, consumer complaints, most production
numbers, and field reports is not subject to disclosure because the release of this
information could: (1) lead to less candor from field personnel, resulting in less
reliable information, and would discourage marketing efforts that lead to more
complete and useful information; (2) be analyzed by competitors to identify
suppliers, production cycles, and the reliability of products; (3) cause
manufacturers to limit current warranty policies, and discourage their expansion;
and (4) discourage companies from actively pursuing or restrict their ability to

27
     In September 2000, Senator John McCain, then Ranking Minority Member of the Committee on
      Commerce, Science, and Transportation, held hearings to determine why NHTSA, Firestone Tire, and
      Ford Motor Company did not identify tread separation defects sooner to prevent the 103 deaths and over
      400 injuries associated with defective Firestone tires. As of October 2001, these numbers had increased
      to over 400 deaths and 800 injuries.
28
     68 Fed. Reg. 44,209 (July 28, 2003) codified at 49 C.F.R. Part 512.
                                                                                                    17

receive customer feedback. NHTSA concluded that disclosure, therefore, could
cause competitive harm to manufacturers or impair the Government’s ability to
obtain like information in the future, or both.29

Some public interest groups, such as Public Citizen, and some manufacturers do
not agree with NHTSA’s interpretation of what EWR information is subject to
public disclosure. Public interest groups maintain that the public should not be
required to wait until NHTSA formally opens an investigation to have access to
EWR information. In the notice and comment period for NHTSA’s rule, Public
Citizen argued that the public is entitled to all EWR information submitted in
order to make informed decisions regarding vehicle safety. On March 22, 2004,
Public Citizen filed a lawsuit in the U.S. District Court for the District of
Columbia challenging NHTSA’s disclosure rule30 and whether adequate notice
was given regarding the scope of the rulemaking. As of September 21, 2004 this
litigation was still pending.31

Contrary to Public Citizen’s position, the Rubber Manufacturers Association
believes that until the opening of a formal defect investigation, all EWR
information should be exempt from public disclosure because disclosure would
result in competitive harm. They have also argued that a colloquy on the House
Floor during consideration of the TREAD Act in October 2000, shows that
Congress intended to protect all EWR information from disclosure before a defect
investigation is initiated. The Association relies on the colloquy in which two
members agreed that “to protect the confidentiality of this new early stage
information, the bill provides . . . that such information shall be treated as
confidential unless the Secretary makes a finding that disclosure would assist in
ensuring public safety.”32

NHTSA’s interpretation of the TREAD Act and FOIA and their application to the
public release of EWR information is now before the courts. We are not taking a
position on this issue. However, it is our opinion that limiting the release of EWR
information makes it more critical for NHTSA to ensure it is carefully analyzing
the information to protect the public from safety defects at as early a stage as
possible.




29
     49 CFR Part 512, Appendix C.
30
     Public Citizen, Inc. v. Mineta, Civ. No. 04-463, filed March 22, 2004 (D.D.C.).
31
     The Rubber Manufacturer’s Association filed a motion to intervene on June 21, 2004, which the court
     granted on June 25, 2004. The DOT filed its answer to Public Citizen’s complaint on June 21, 2004.
32
     Congressional Record H9629 (October 10, 2000).
                                                                                 18


RECOMMENDATIONS
We recommend that the NHTSA Administrator:

1. Ensure the March 2004 $11.46 million O&M cost estimate for FYs 2005
   through 2009 is adequately supported.

2. Revise the EWR data analysis plan to better define the advanced analytical
   capabilities needed, identify the software NHTSA intends to purchase and the
   associated costs, and establish a schedule with milestone dates for obtaining
   these capabilities.

3. Establish milestones for completing procedures to incorporate EWR
   information into the defects screening process and train defect analysts on the
   new procedures to provide reasonable assurance that decisions relating to the
   opening of safety defect investigations are based on thorough and consistent
   analyses of all available defects information.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
In its September 15, 2004 response to the draft report (see Appendix), NHTSA
concurred with the recommendations, stating that it is taking appropriate actions to
implement them. However, NHTSA’s comments did not explain what those
actions were or when they would be implemented. Therefore, we are requesting
more details on the specific steps that NHTSA will take and the time frames for
implementing each of the three report recommendations. We also updated our
report to reflect the August 13, 2004 issuance of NHTSA’s rule on the Disposition
of Recalled Tires, which implements section 7 of the Tread Act.

NHTSA also expressed concern that the report does not represent an accurate
discussion of the agency’s estimates of future ARTEMIS O&M costs, overstates
the role of EWR data in the identification of safety defects, and does not
sufficiently describe the process used by the agency in developing tools to analyze
the EWR data. We believe the report accurately discusses these issues and have
addressed each of NHTSA’s concerns below.

ARTEMIS Costs. NHTSA takes issue with the report’s description of the
process by which the O&M cost estimates were reduced and the OIG’s finding
that there is “weak justification” for the current estimate. NHTSA states that as
the OIG is aware, the initial O&M estimate was put into the ARTEMIS business
case in the fall of 2003 merely as a “place holder” and was derived by
extrapolating from early, pre-production estimates. As the Agency gained
experience in operating ARTEMIS, in early 2004, it prepared (and the NHTSA
                                                                                   19

CIO approved) a detailed O&M estimate that reflected the actual cost experience.
Finally, NHTSA never sought long-term O&M funds, and considers it
inappropriate for the OIG to suggest that its efforts contributed to “creating an
opportunity to put funds to better use.”

We believe NHTSA’s characterization of the initial cost estimate as “merely a
place holder” further supports our finding that the justification for the initial cost
estimate was weak. When we questioned the original estimate, NHTSA officials
told us they relied on Volpe to develop the cost estimate and did not know what
process Volpe used in estimating the cost. Also, not all components of ARTEMIS
were in pre-production in the fall of 2003, as NHTSA’s response claims. NHTSA
incrementally deployed ARTEMIS, with Phase I becoming operational in
December 2002. As a result, NHTSA should have had 9 months of actual O&M
cost experience on Phase I upon which to base a portion of its initial estimate.

NHTSA’s response also suggests that the OIG, knowing that the original cost
estimate was a place holder, should not have criticized the reliability of the
estimate. Yet, NHTSA presented this estimate to the IRB for its FY 2005 budget
submission to the OMB. In March 2004, NHTSA reduced its cost estimate from
$17.12 million to $11.46 million and the period covered from FYs 2005 to 2010 to
FYs 2005 to 2009. While we found the $11.46 million estimate to be more
reasonable, portions of the revised estimate, such as the “security” costs still
contain weak justification.

Finally, the Inspector General (IG) Act of 1978, as amended, directs each
Inspector General to prepare a semi-annual report to the Congress that, among
other things, identifies the dollar value of “recommended funds that can be put to
better use” by management. The Act specifies that these funds should include
planned outlays and does not differentiate between short-term and long-term
outlays. As mentioned earlier, the ARTEMIS funding request, developed as part
of NHTSA’s FY 2005 budget submission to OMB, reduced projected O&M
outlays for ARTEMIS from $17.12 million to $11.46 million after the OIG
questioned these costs. Therefore, the report’s characterization of the O&M funds
that could be put to better use is appropriate and consistent with the provisions of
the IG Act.

EWR Data and Analytical Tools. NHTSA expressed concern that the report
could be read to overstate the ability of EWR data to point to safety defects in the
absence of further inquiry and investigation. For example, according to NHTSA,
the data do not contain sufficient detail to allow identification of potential safety
defects without further inquiry and investigation, primarily because the categories
of components and systems in vehicles, child restraint systems, and tires are
extremely broad.
                                                                                 20

NHTSA also believes that the report does not sufficiently describe its efforts to
develop analytical tools to analyze the EWR data. NHTSA states that it is in the
process of developing these tools to help it use the EWR data as a pointer to issues
worthy of further assessment, which was impossible to do earlier without first
having access to at least a sampling of actual EWR data from manufacturers.
Further, NHTSA asserts that its decision not to incorporate advanced analytical
capabilities into ARTEMIS was made in the interest of efficiency, quality, and
cost. NHTSA states that ARTEMIS provides some analytical capabilities, but the
use of cost-effective commercial off-the-shelf products would provide greater
flexibility at a lower cost.

We do not believe the report overstates the ability of ARTEMIS to point to safety
defects. The report contains no references to the use of the EWR data to identify
safety defects without further analysis or investigation. In fact the report states
that ARTEMIS cannot provide the more advanced trend analyses needed to find
patterns and subtle relationships among the various types of EWR data to point
analysts to potential defects warranting investigation (emphasis added).

Further, the report describes OIG’s knowledge of NHTSA’s efforts to develop
analytical tools to analyze the EWR data. Despite repeated attempts to get more
details, none was forthcoming. For example, the audit team attempted on May 20,
21, and 25, and August 2, 2004 to obtain additional details about NHTSA’s plans,
but NHTSA did not provide the OIG a description of its efforts beyond what is
noted in the report. We also note that NHTSA’s response to the report asserts
insufficient discussion is given to agency efforts to develop these tools, but does
not provide any details about its efforts, which could have been incorporated into
the final report.

Finally, the report acknowledges that ARTEMIS has some analytical capabilities.
We also do not take issue with NHTSA’s decision to acquire more advanced
analytical capabilities outside of the systems development effort. If NHTSA can
acquire the advanced analytical capabilities more cost effectively through the use
of commercially available software, it should expeditiously do so, especially since
NHTSA began receiving EWR information in December 2003. We are requesting
more details from NHTSA on the specific analytical tools it will use and its time
frames for acquiring them.

Confidentiality of EWR Data. NHTSA expressed concern with the report’s
characterization of the Agency’s regulation on the disclosure of EWR data.
NHTSA states that it reviewed public comments and carefully construed the
significant legal issues. Although NHTSA does not specify what its concern is
with the report’s characterization of the regulation, it states that disclosure
decisions should be made not with regard to the volume of information disclosed,
but rather with regard to the character of the data and applicable law.
                                                                                21

We believe the report’s characterization of the EWR rule is a factual presentation
of the information that will be released under the rule, the criteria NHTSA used in
determining what information would be subject to disclosure, and the
disagreement between public interest groups and manufacturers over NHTSA’s
interpretation of what EWR information to disclose. In fact, the report states that
the OIG is not taking a position on the reasonableness of NHTSA’s interpretation
of the Tread Act and the FOIA regarding this issue.


ACTION REQUIRED
Although NHTSA concurred with the recommendations, stating that it is taking
appropriate actions to implement them, the agency did not explain what those
actions were or when they would be implemented. Therefore, we do not have
enough information to consider NHTSA’s comments responsive to the report
recommendations. In accordance with DOT Order 8000.1C, we are requesting
that NHTSA provide more details, within 30 days, on the specific steps that it will
take and the time frames for implementing each of the three report
recommendations.

We appreciate the courtesies and cooperation of NHTSA, RSPA, Volpe National
Transportation Systems Center, and representatives of the Office of the DOT
Chief Information Officer during this audit. If you have any questions concerning
this report, please call me at (202) 366-1992 or Debra Ritt, Assistant Inspector
General for Surface and Maritime Programs, at (202) 366-5630.

                                        #

cc: Deputy Administrator, Research and Special Programs Administration
    Acting Deputy Director, Volpe National Transportation Systems Center
    DOT Chief Information Officer
                                                                                                         22



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our audit in accordance with Government Auditing Standards as
prescribed by the Comptroller General of the United States. We performed our
work from January 2003 through June 2004 at NHTSA Headquarters in
Washington, D.C., and the Volpe National Transportation Systems Center in
Cambridge, Massachusetts. We accomplished the audit objectives by interviewing
key staff, such as the DOT CIO, NHTSA’s Administrator, Chief Counsel,
Assistant Administrator for Enforcement, and Director of the Office of Safety
Defects Investigation. We also obtained and reviewed documentation, and
verified the status of actions taken by NHTSA and Volpe personnel.

To determine NHTSA’s progress in implementing required TREAD Act
rulemakings, studies, reports, and programs, we reviewed the TREAD Act
requirements and associated statutory deadlines, and evaluated NHTSA’s actions
to complete the requirements.1 We assessed the status of actions not yet
completed, determined when NHTSA planned to complete the remaining TREAD
Act requirements, and assessed reasons for meeting or not meeting deadlines
through discussions with key management officials. In addition, we discussed the
effectiveness of NHTSA’s actions to implement TREAD Act requirements with
officials from a public safety advocacy organization.

To determine whether ODI had the appropriate information systems infrastructure
and processes in place to promptly identify potential defects as intended by the
TREAD Act, we analyzed the status of the safety defects information system
called ARTEMIS—Advanced Retrieval (Tire, Equipment, Motor Vehicle)
Information System—under development at Volpe. We evaluated Volpe’s
progress in developing software for the new system, assessed the reliability of
system development costs and project duration estimates, and discussed
development progress with Volpe and their contractor, CSC. We also evaluated
the contract oversight and administrative services provided by Arthur Andersen
and MITRE, reviewed their reports to NHTSA assessing ARTEMIS quality and
completeness, and discussed their impact with MITRE representatives.

To evaluate whether sufficient support was available for NHTSA’s O&M cost
estimates for ARTEMIS, we reviewed information NHTSA provided to the DOT
Investment Review Board supporting the cost estimates made as part of the capital
asset plan and business case submission to the OMB. As part of the DOT capital
planning and investment control process, NHTSA was required to develop a
business case for ARTEMIS with accurate, reliable, and up-to-date data on project
costs. We met with NHTSA officials responsible for preparing the O&M cost

1
    Any action completed within 10 days of the statutory deadline was considered to have met the deadline.


Exhibit A. Scope and Methodology
                                                                               23

estimates for ARTEMIS to discuss the basis for and the assumptions used in
formulating the O&M cost estimates. We also reviewed a “high-level” breakdown
of the O&M cost estimates for ARTEMIS provided by NHTSA.

We obtained information from NHTSA and Volpe financial management systems
(the Departmental Accounting and Financial Information System and its
replacement system, Delphi) to determine the cumulative expenditures for
ARTEMIS. However, we did not verify that the computer-provided output was
correctly processed.

We also assessed the actions NHTSA, Volpe, and DOT CIO officials were taking
to mitigate development risk, and ensure ARTEMIS would meet TREAD Act
requirements as well as cost and schedule estimates. We evaluated NHTSA’s
actions to ensure that data transferred from ODI’s two legacy systems to
ARTEMIS would be accurate and complete.

To determine whether NHTSA had established processes to ensure consistency in
recommending and opening defect investigations and ensuring the highest priority
cases are investigated, we reviewed NHTSA’s actions to establish a peer review
panel. We assessed NHTSA’s efforts to integrate the panel into NHTSA’s overall
safety defect screening and investigation process. We determined whether the
peer review function had written procedures, documented decisions, and required
specific analyses for opening defect investigation cases. We also verified the
extent that a formal training program existed for screeners and whether personnel
had been trained in defect analysis procedures in preparation to open new cases.

We also examined NHTSA’s actions related to publishing a final rule establishing
guidelines for limiting public disclosure of EWR information. To do this, we
reviewed TREAD Act and FOIA requirements, NHTSA documentation related to
the final rule, and public comments concerning the rule, and held discussions with
NHTSA officials and a public safety advocacy organization.




Exhibit A. Scope and Methodology
                                                                                  24




EXHIBIT B. PRIOR AUDIT COVERAGE

Reviews by the Office of Inspector General
In response to a request from Senator John McCain, then Ranking Minority
Member of the Committee on Commerce, Science, and Transportation, in
January 2002, the Office of Inspector General (OIG) issued, Report Number
MH-2002-071, “Review of the Office of Defects Investigation.” The OIG found
that NHTSA had made progress in meeting TREAD Act requirements, but still
faced challenges in fully implementing the Act and improving its ability to
identify potential safety defects. Specifically, the report recommended that
NHTSA:

       • Complete TREAD Act rulemakings, most importantly the rule on EWR
         requirements, in a timely and comprehensive manner.

       • Develop a new defect information management system to replace the
         flawed system. This is important because the success of the TREAD Act
         depends on the quality and usefulness of the new information system and
         ODI's ability to identify potential defects.

       • Establish a peer review panel to ensure that data used to identify potential
         defects are comprehensively and thoroughly analyzed and that
         investigations are opened and prioritized in a consistent manner.

Reviews by the U.S. General Accounting Office
In January 2001, the General Accounting Office (GAO)1 issued a report
GAO-01-225, “NHTSA’s Ability to Detect and Recall Defective Replacement
Crash-Parts Is Limited.” The review was initiated because of potential concerns
about the safety of aftermarket crash parts and recycled airbags. Crash parts are
generally made of sheet metal or plastic, installed on the exterior of a motor
vehicle, and include bumper components, hoods, doors, fenders, and trunk lids.

GAO found that NHTSA has broad authority to set safety standards for
aftermarket crash parts. However, because NHTSA had not determined that these
parts posed a significant safety concern, it had not developed safety standards for
them. GAO also found that NHTSA’s ability to identify and recall unsafe
aftermarket parts was limited, because NHTSA relies heavily on a complaint
database that may contain only a small portion of complaints that customers make

1
    Renamed the Government Accountability Office as of July 7, 2004.


Exhibit B. Pri or Audit Coverage
                                                                            25

to manufacturers. In addition, aftermarket crash parts may not be identified as
such in the database.




Exhibit B. Pri or Audit Coverage
                                                                                                   26




EXHIBIT C. DESCRIPTION OF EWR
INFORMATION CATEGORIES
The following generally describes the categories of EWR information to be
submitted by vehicle and equipment manufacturers.1

1. Production Numbers

       The number of vehicles, tires, and child restraint systems, by make, model, and
       model (or production) year.

2. Claims and Notices Involving Death, Personal Injury, and Property
   Damage

       The make, model, model year, and vehicle identification number (VIN) of the
       vehicle involved, the date of the incident, the number of deaths and/or injuries
       involved, the state or foreign country in which the incident occurred, and each
       system or component that is referred to in the claim or notice involving:

           • a death that occurred in the United States that is identified in a claim;

           • a death in the United States that is identified in a notice alleging or
             proving that the death was caused by a possible defect in the
             manufacturer’s product;

           • each death occurring in a foreign country that is identified in a claim
             involving the manufacturer’s product, if it is identical or substantially
             similar to a product that the manufacturer has offered for sale in the
             United States; and

           • an injury that occurred in the United States that is identified in a claim,
             or that is identified in a notice alleging or proving that the injury was
             caused by a possible defect in the manufacturer’s product.

       In addition, the larger vehicle and tire manufacturers must report the numbers
       of property damage claims that occurred in the United States that involve
       specified components and systems, regardless of the amount of such claims.




1
    NHTSA’s Final Rule on Confidential Business Information, 68 Fed. Reg. 44209 (July 28, 2003).


Exhibit C. Descri ption of EWR Informat ion Categories
                                                                                                      27

3. Information Regarding Warranty Claims

     The number of paid warranty claims (adjustments for tire manufacturers),
     including extended warranty and good will, that involved specified
     components and systems and that arose in the United States. Manufacturers of
     child restraint systems must combine these with the number of reportable
     consumer complaints.

4. Field Reports

     The total number of field reports received from the manufacturer’s employees,
     representatives, and dealers; from fleets, that are related to problems with
     specified components and systems; and for vehicles and restraints offered for
     sale, sold, or leased in the United States. In addition, manufacturers must
     provide copies of certain field reports received from their employees,
     representatives, and fleets, but are not required to provide copies of reports
     received from dealers.

5. Consumer Complaints2

     Communication of any kind that is made by a consumer (or other person) to or
     with a manufacturer addressed to the company, an officer thereof or an entity
     thereof that handles consumer matters, a manufacturer Web site that receives
     consumer complaints, a manufacturer electronic mail system that receives such
     information at the corporate level, or otherwise received by a unit within the
     manufacturer that receives consumer inquiries or complaints. These include
     telephonic complaints expressing dissatisfaction with a product or relating the
     unsatisfactory performance of a product, any actual or potential defect in a
     product, or any event that allegedly was caused by any actual or potential
     defect in a product, but not including a claim of any kind or a notice involving
     a fatality or injury.




2
    Child restraint system manufacturers will report consumer complaints and warranty data together. As to
    those manufacturers, the data are considered warranty data for purposes of this rule.




Exhibit C. Descri ption of EWR Informat ion Categories
                                                                                                       28




EXHIBIT D. DESCRIPTION OF ARTEMIS
ARTEMIS is a defect data storage and monitoring system and is being developed
in two phases. Phase I replaces two existing legacy safety defect information
systems1 by combining these systems through the linking of the information
database to the corresponding electronic images of relevant documents, such as
letters and reports that had been scanned into the system. ARTEMIS enhances
legacy system capabilities by providing new capabilities for ad hoc query and
reporting, data analysis and monitoring, automated workflow including the
electronic routing and tracking of work-related documents, and automatic system-
assisted document generation, such as response letters to consumers. Phase II
creates new capabilities for receiving, storing, and analyzing EWR information
that vehicle and equipment manufacturers periodically submit as required by the
TREAD Act. The Figure below generally depicts the ARTEMIS information
flow.


                                   ARTEMIS Information Flow

                 LEGACY                                                       NEW
              INFORMATION                                                 INFORMATION




      Consumer Complaints,                                                 Manufacturers’
        Technical Service                                                  Early Warning
      Bulletins, Recalls, and                                           Reporting Information
      Defects Investigations
           Information                    ARTEMIS

                                                               ODI
                                                             Analysis




                                      Public Disclosure of     Pursue Defect             No Required
                                      Selected Information     Investigation               Action


    Source:    OIG analysis of
               ODI documentation




1
    The Defect Information Management System (DIMS) and the Electronic Document Information
    Management System (EDIMS).


Exhibit D. Descri ption of ARTEMIS
                                                                                 29

ARTEMIS consists of both an Intranet application for internal NHTSA use as well
as an Internet application for public access. Internally, NHTSA analysts and
investigators use ARTEMIS to identify potential safety defects and develop the
rationale for initiating safety defect investigations. The public Web site, which
can be found at http://www-odi.nhtsa.dot.gov/cars/problems/defect/, allows
consumers access to information on safety recalls, consumer complaints, defect
investigations, and service bulletins concerning vehicles, vehicle equipment, tires,
and child safety seats to facilitate more fully informed decisionmaking.
Consumers can also electronically file safety defect complaints directly into the
vehicle owner complaint portion of the ARTEMIS database.




Exhibit D. Descri ption of ARTEMIS
                                                                                                      30




EXHIBIT E. STATUS OF TREAD ACT
REQUIREMENTS
                                  TREAD Act Required Rulemakings

                              NHTSA        Statutory  Date Timeliness
       Requirement                                                                           Status
                              Action       Deadline Complete vs. Statute

    1 Section 3(a).           ANPRM1          None      01/22/01       N/A       COMPLETED.
      Report on Defects                                                          One petition for
      in Foreign               NPRM           None      10/11/01       N/A       reconsideration had
      Countries                                                                  been received and
                             Final Rule       None      10/11/02       N/A       resolved.

    2 Section 3(b).                                                  10 Days     COMPLETED.
      Early Warning           ANPRM          02/01/01   01/22/01                 Petitions for
                                                                      Early
      Reporting                                                                  reconsideration were
      Requirements                                                               grouped into two sets.
                               NPRM           None      12/21/01       N/A       The first set was
                                                                                 addressed on
                                                                                 April 15, 2003; the
                                                                                 second set was
                                                                     10 Days
                             Final Rule      06/30/02   07/10/02                 addressed on
                                                                       Late
                                                                                 June 11, 2003.

    3 Section 3(c).                                                              COMPLETED.
                                                                     1 Month
      Sale or Lease of          IFR2         01/29/01   12/26/00                 IFR was issued before
                                                                       Early
      Defective or                                                               deadline. Comments
      Noncompliant                                                               were considered in
      Tire                   Final Rule       None      07/23/01       N/A       Final Rule.

    4 Section 5(a).                                                              COMPLETED.
                             Final Rule       None      11/14/00       N/A
      Civil Penalties                                                            Final Rule issued.

    5 Section 5(b).                                                              COMPLETED.
                                                                     1 Month
      Criminal                   IFR         01/29/01   12/26/00                 IFR issued by
                                                                       Early
      Penalties                                                                  deadline; however,
                                                                                 NHTSA was unable to
                                                                                 issue the notice for
                             Final Rule       None      07/24/01       N/A       comment and final rule
                                                                                 within 90-day
                                                                                 requirement.
    Source: OIG analysis of NHTSA rulemaking activities published in the Federal Register.



1
    Advance Notice of Proposed Rulemaking.
2
    Interim Final Rule.


Exhibit E. Stat us of Tread Act Requirements
                                                                                        31



                           TREAD Act Required Rulemakings

                        NHTSA         Statutory  Date Timeliness
   Requirement                                                                Status
                        Action        Deadline Complete vs. Statute

6 Section 6(a).   NPRM                  None     12/11/01     N/A
  Acceleration of
                                                                       COMPLETED.
  Manufacturer
  Remedy Program Final Rule             None     12/05/02     N/A

7 Section 6(b).          NPRM           None     12/11/01     N/A
  Reimbursement                                                        COMPLETED.
  Prior to Recall      Final Rule       None     10/17/02     N/A

8 Section 7.
  Disposition of         NPRM           None     12/18/01     N/A
  Recalled Tires

                      Supplemental
                                        None     07/26/02     N/A      COMPLETED.
                         NPRM


                       Final Rule       None     08/13/04     N/A


9 Section 8.             NPRM           None     07/23/01     N/A
  Sales of Replaced                                                    COMPLETED.
  Equipment            Final Rule       None     04/23/02     N/A

10 Section 9.                                                          CLOSED.
   Certification                                                       On June 2, 2004, the
                         NPRM           None     06/02/04     N/A      NHTSA Administrator
   Label
                                                                       decided against
                                                                       pursuing rulemaking
                                                                       to implement this
                                                                       section of the TREAD
                       Final Rule       None     06/02/04     N/A      Act.


11 Section 10.                                                      COMPLETED.
                         NPRM           None     03/05/02     N/A
   Endurance and                                                    Scope of NPRM was
   Resistance                                                       revised due to
   Standards for      Correction to
                                        None     04/03/02    N/A    comments regarding
   Tires                NPRM
                                                                    costs/benefits of rule.
                                                          13 Months Comment period
                       Final Rule     06/01/02   06/26/03           extended 60 days.
                                                             Late




Exhibit E. Stat us of Tread Act Requirements
                                                                                           32


                          TREAD Act Required Rulemakings

                      NHTSA         Statutory  Date Timeliness
   Requirement                                                                Status
                      Action        Deadline Complete vs. Statute

12 Section 11.                                              Met    COMPLETED.
   Improved Tire      ANPRM         12/01/00   12/01/00            Did not meet deadline.
                                                          Deadline
   Information                                                     Due to concerns
                                                                   relating to
                       NPRM           None     12/19/01    N/A     costs/benefits of
                                                                   rulemaking, it took
                                                                   additional time to
                                                        5 ½ Months obtain OST and OMB
                     Final Rule     06/01/02   11/18/02
                                                           Late    approval.

13 Section 13.                                                       RULE IS BEING
   Tire Pressure                                                     REWRITTEN. A
   Warning                                                           final rule was issued
                                                                     June 5, 2002.
                       NPRM           None     07/26/01     N/A      However, on August 6,
                                                                      2003, the U.S. Court of
                                                                      Appeals for the Second
                                                                      Circuit overturned the
                                                                      rule, citing that the rule
                                                                      was unsafe, and
                                                                      ordering NHTSA to
                                                                      rewrite the rule.
                                                                      NHTSA is planning to
                      Final Rule                          7 Months    publish a new Notice of
                                    11/01/01   06/05/02               Proposed Rulemaking
                     (overturned)                           Late
                                                                      in the Federal Register
                                                                      by September 30, 2004.



14 Section 14.                                                       RULE COMPLETED;
                       NPRM                               6 Months   REPORT TO
   Improving the                    11/01/01   05/01/02
                      (initiate)                            Late     CONGRESS
   Safety of Child
   Restraints                                                        PENDING.
                                                                     The rule was to
                                                          8 Months   include both frontal
                     Final Rule     11/01/02   06/24/03
                                                            Late     and side impact issues.
                                                                     Due to lack of side
                                                                     impact data,
                                                                     OST/OMB requested
                      Report to                                      the two issues be
                                    07/24/03   Pending     TBD
                      Congress                                       separated. This rule
                                                                     addresses frontal
                                                                     impact issues.




Exhibit E. Stat us of Tread Act Requirements
                                                                                         33


                            TREAD Act Required Rulemakings

                         NHTSA        Statutory  Date Timeliness
   Requirement                                                                 Status
                         Action       Deadline Complete vs. Statute

15 Section 14 (b)(5).                                                  COMPLETED.
   Improve Child          NPRM                                Met      Final rule on
                                      11/01/01   11/01/01
   Restraint             (initiate)                         Deadline   Improving Child
   Labeling                                                            Restraint Labeling was
                                                                       issued separately from
                                                                       the remainder of
                                                            1 Month    Section 14, Improving
                        Final Rule    11/01/02   10/01/02
                                                              Early    the Safety of Child
                                                                       Restraints.




                   TREAD Act Required Reports, Studies, and Programs

                         NHTSA        Statutory Date    Timeliness
       Requirement                                                             Status
                         Action       Deadline Complete vs. Statute

1 Section 3(d).         Transmit to                         4 Days
                                    03/01/01 03/05/01                  COMPLETED.
  Insurance Study        Congress                            Late

2 Section 12.            Publish
  Rollover Tests        Request for     None     07/03/01    N/A       COMPLETED.
                        Comments                                       Controversy
                                                                       surrounding sport
                          NPRM          None     10/07/02    N/A       utility vehicle (SUV)
                                                                       rollovers further
                        Final Policy                     11 ½          delayed issuance.
                                     11/01/02 10/14/03
                         Statement                     Months Late

3 Section 14(g).          Publish
  Child Restraint        notice on
  Safety Ratings        test results,                                  COMPLETED.
                                                            5 Days
  Program                proposal, 11/01/01 11/06/01                   Consumer information
                                                             Late
                        and request                                    programs are
                             for                                       established upon
                         comments                                      notification of the
                          Publish                                      public rather than
                           notice                                      through issuance of
                                                            4 Days     NPRM/Final rule.
                        announcing 11/01/02 11/05/02
                                                             Late
                        CRS rating
                          system




Exhibit E. Stat us of Tread Act Requirements
                                                                                       34


                   TREAD Act Required Reports, Studies, and Programs

                        NHTSA       Statutory Date    Timeliness
      Requirement                                                            Status
                        Action      Deadline Complete vs. Statute

4 Section 14(h).                                                    COMPLETED.
  Booster Seat Study                                                The Booster Seat
                                                                    Report to Congress was
                                                                    initially linked to the
                                                                    Booster Seat Education
                        Report to                       13 Months
                                    11/01/01 11/27/02               Program, both
                        Congress                           Late
                                                                    mandated by the Act.
                                                                    A decision was made,
                                                                    after the initial
                                                                    deadline, to separate the
                                                                    reports.
5 Section 14(i).                                                    COMPLETED.
  Booster Seat                                                      NHTSA determined
                        Publish
  Education                                             9 Months    that the specified goal
                        Strategic   11/01/01 08/07/02
  Program                                                 Late      was not attainable, and
                          Plan
                                                                    therefore had to
                                                                    develop revised goals.
6 Section 15.                                                       COMPLETED.
  Improving                                                         OIG Report “Review of
  Criteria Used in a                                                the Office of Defects
                        Report to                       3 Months
  Recall                            11/01/01 01/31/02               Investigation,”
                        Congress                          Late
                                                                    January 3, 2002, was
                                                                    used by NHTSA to
                                                                    satisfy requirement.
   Section 16.
   Follow-Up
                        Report to                       1 ½ Months
   Report on                        11/01/01 12/17/01              COMPLETED.
                        Congress                           Late
   Implementation
   of the Act




Exhibit E. Stat us of Tread Act Requirements
                                                                                                         35




EXHIBIT F. ARTEMIS DEVELOPMENT PLANNING
AND OVERSIGHT WEAKNESSES
The cost and schedule problems experienced in developing ARTEMIS were
attributable to Volpe and NHTSA’s poor project planning and execution.1
Specifically:

      • Volpe initiated the ARTEMIS software development without a completed
        project management plan or finalized system requirements. It also did not
        follow a structured information systems development process as required
        by its May 1993 system software development manual. As a result, the
        ARTEMIS development effort proceeded without an appropriate systems
        development strategy, sequence of events and milestones, or reliable cost
        and schedule estimates for the design, development, and implementation of
        the project.

      • In response to concerns about the project development effort, in April 2003,
        senior DOT officials,2 and NHTSA, RSPA, and Volpe officials
        significantly increased oversight of NHTSA’s formalization of ARTEMIS
        Phase II requirements. These requirements were finalized in June 2003;
        however, the systems development effort was permitted to continue before
        there was clear agreement of what was to be developed in an attempt to
        meet the then July 1, 2003, schedule milestone for deploying the first part
        of Phase II.3

      • Because NHTSA did not have its own CIO until May 2003, it relied too
        heavily on Volpe for technical guidance to monitor the performance of
        information technology programs. Additionally, its project team lacked

1
    On July 10, 2003, at the request of the Chairman of the House Appropriations Subcommittee on
    Transportation, Treasury and Independent Agencies, the Office of Inspector General initiated an audit of
    Volpe to determine: (1) how Volpe’s role and functions have changed over the years and whether current
    Volpe activities meet DOT needs; (2) if Volpe has the necessary financial controls in place to ensure its
    service fees are appropriate; and (3) DOT’s role in overseeing Volpe and whether the role is adequate to
    ensure that Volpe provides cost-effective services. On August 4, 2004 the Office of Inspector General
    issued the first two of three reports addressing these objectives, and is awaiting management comments
    on the third report, which will be issued later this year.
2
    Including the Secretary, former Deputy Secretary, and Chief Information Officer.
3
    After Phase II requirements were defined in June 2003, milestone dates for EWR information
    submissions from manufacturers were revised. Phase II was then divided into three subphases to meet
    the newly revised milestones. Phase IIA (manufacturers’ aggregate statistical information submission)
    was completed in October 2003. Phase IIB (foreign recall information submission) was completed in
    December 2003. Phase IIC (capability to receipt and process manufacturers’ field reports) was
    completed in March 2004.

Exhibit F. ARTEMI S Development Planning and O versight
Weaknesses
                                                                                                      36

          expertise in information systems development. As a result, NHTSA did not
          always act on problem indicators identified by project staff. For example,
          two ARTEMIS program status briefings to the ARTEMIS Oversight
          Committee and the NHTSA Investment Review Board in January 2003
          identified problems with the development, such as multiple revisions to
          completion dates, unclear requirements, and changing priorities. Although
          Volpe briefed NHTSA that the project’s cost and schedule were under
          control, within 1 month of the January briefings, cost estimates increased
          by $1 million; and within 2 months project completion slipped by
          5 months.

      • In addition, the DOT CIO staff was not actively engaged in monitoring and
        evaluating the performance of the ARTEMIS project, as required by the
        Clinger-Cohen Act,4 until April 2003—after significant cost, schedule, and
        funding problems had been identified. In our opinion, prior to this time,
        CIO personnel did not have a solid basis for advising the Secretary on
        whether or not to continue, modify, or terminate the project. Increased
        DOT CIO involvement throughout the ARTEMIS development effort
        would have been especially beneficial, given the lack of a NHTSA CIO,
        and because the NHTSA project team lacked information systems
        development expertise.

In February 2002, NHTSA contracted with Arthur Andersen to assess ARTEMIS
project management activities, and in July 2002, contracted with MITRE
Corporation to provide independent program management guidance for the
ARTEMIS development effort. However, neither contractor performed an
independent verification and validation (IV&V), as recommended in our January
2002 report, to ensure that ARTEMIS would meet NHTSA’s needs and that
problems were identified early before they resulted in significant cost increases
and schedule slippages. IV&V is a comprehensive independent test of system
software during development that primarily determines whether (1) software
requirements are correctly and completely implemented, and (2) software correctly
performs its intended functions and does not perform unintended functions.5
NHTSA officials told us they did not contract for IV&V because they believed it
to be “very expensive” and could not afford it since monies had not been budgeted
for this purpose.




4
    Division E of Public Law 104-106, “National Defense Authorization Act for Fiscal Year 1996,”
    February 10, 1996.
5
    National Institute of Standards and Technology Special Publication 500-234, “Reference Information for
    the Software Verification and Validation Process,” March 29, 1996.

Exhibit F. ARTEMI S Development Planning and O versight
Weaknesses
                                                                                  37




EXHIBIT G. DESCRIPTION OF THE SCREENING
AND INVESTIGATION PROCESS
NHTSA’s defect screening and investigation process is conducted among four
divisions within ODI (see Figure below for details). This process consists of an
analysis to identify potential safety defects (screening), an agreement to begin an
investigation (review panel), preliminary evaluation (investigation), engineering
analysis, and product recall. Within the Defect Analysis Division, 8 analysts
conduct the “screening” for potential safety defects, and 24 investigators in the
Vehicle Control, Vehicle Integrity, and Medium and Heavy Duty Vehicle
Divisions conduct the defects investigations. ODI has also established a review
panel consisting of the ODI Director, Assistant Director, the four ODI Division
Chiefs, and is usually augmented by screening and investigative staff members
who present the merits of each proposed investigation for panel consideration.

Defect Analysis and Identification. The Defect Analysis Division is
responsible for collecting and analyzing information to identify potential safety
defects, which can take 1 to 3 months. When sufficient consumer complaint and
industry information is compiled to indicate a potential safety defect, an analyst in
the Defect Analysis Division prepares an initial evaluation (IE) package describing
pertinent information about the potential defect, and forwards it to the Defect
Analysis Division Chief for final review and preparation. After the Chief’s
review, the package is forwarded to members of the review panel 2 weeks before
the review panel meeting.

Review Panel. The review panel meets biweekly to discuss and evaluate
investigation proposals presented in IE packages. The panel decides whether or
not to open an investigation. If a decision is made to open an investigation,
personnel in the appropriate investigative division prepare a preliminary
evaluation (PE) opening resumé to explain the reasons for opening the
investigation. A PE usually lasts 4 months.

Engineering Analysis. During the PE stage, if the ODI Director and
responsible Division Chief decide that more analysis of the potential safety defect
is needed, they recommend an upgrade to an engineering analysis (EA). During
an EA, the ODI Director or Division Chief may request additional technical
information from the manufacturer to answer questions raised during the PE. At
the completion of the EA, a decision is made to either close the EA or request the
manufacturer to issue a recall of the defective part. An EA can last up to 1 year.




Exhibit G. Descript ion of the Screening and Investigation Process
                                                                                                              38


                                                     Figure

                   ODI DEFECT SCREENING AND INVESTIGATION PROCESS

 Defect analysts collect and analyze               Defect
 defect information to identify safety          Identification      èè No safety defect found.
 defects.                                       and Analysis
                                                       ê
                                                         Sufficient defect Information compiled.
                                                       ê
 Defect analysts prepare Initial              Initial Evaluation
 Evaluation (IE) Resumé to describe                Resumé
 safety defect information such as
 consumer complaints and industry                      ê IE resumé is forwarded through Defect Analysis
 reports.                                              ê Division Chief for final review.
 IE resumés (investigation proposals)                                     No investigation warranted or
 presented to Review Panel for                  Review Panel        èè
                                                                          additional information requested.
 consideration and evaluation. Panel
 collectively decides whether to                       ê Open an Investigation (Initial Evaluation becomes
 proceed with an investigation.                        ê Preliminary Evaluation).
 Investigator prepares Preliminary               Preliminary
 Evaluation (PE) Resumé to explain               Evaluation
 reasons for the defect investigation.
                                                       ê Investigation opened. Information Request Letter
                                                       ê sent to manufacturer for specific defect information.
 Investigator reviews and analyzes              Investigation             ODI Director and Division Chief decide
 manufacturer defect information to                                 èè
                                                  Analysis                to close PE investigation.
 determine extent to which safety
 defect affects driving public.                        ê Upgrade to Engineering Analysis. Additional
                                                       ê information requested from manufacturer.
 Investigator reviews additional                 Engineering              ODI Director and Division Chief decide
 manufacturer information and                                       èè
                                                  Analysis                to close engineering analysis.
 performs vehicle tests to answer
 detailed technical questions and                      ê
 determines cause of safety defect.                      Request manufacturer to issue a recall.
                                                       ê

                                                Manufacturer
                                                  Recall


 Source:   ODI Office Procedures for Conducting Defect Investigations (1997),
           ODI Office Procedures for Screening Complaints (1998),
           ODI Initial Evaluation Review Panel Procedures (2003)




Exhibit G. Descript ion of the Screening and Investigation Process
                                                                       39




EXHIBIT H. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                             Title

  Debra Ritt                       Assistant Inspector General for Surface
                                      and Maritime Programs

  Jim H. Crumpacker                Program Director

  Mike Siviy                       Project Manager

  Michael Marshlick                Senior Computer Scientist

  Thomas Lehrich                   Chief Counsel

  Seth Kaufman                     Associate Counsel

  Frank Schutz                     Senior Auditor

  Richard Hatcher                  Auditor

  Scott Williams                   Analyst

  Harriet Lambert                  Editor




Exhibit H. Major Contributors to this Report
                                 40




APPENDIX. MANAGEMENT COMMENTS




Appendix. Management Comment s
                                 41




Appendix. Management Comment s
                                 42




Appendix. Management Comment s
                                 43




Appendix. Management Comment s
The following pages contain textual versions of the graphs and charts found in the
preceding document. These pages were not in the original document but have
been added here to accommodate screenreaders and other assistive technology.
                                Follow-up Audit
                                        Of
                       NHTSA’s Office of Defects Investigation
                         (Report #MH-2004-088, dated September 23, 2004)



                         Alternatives for Section 508 Compliance


Figure, Exhibit D. ARTEMIS Information Flow.
Legacy Information, such as consumer complaints, technical service bulletins, recalls, and
effects investigations information, is entered into ARTEMIS. New Information, such as
manufacturers’ Early Warning Reporting information is also entered into ARTEMIS.
The Office if Defects Investigation (ODI) conducts analyses on the ARTEMIS information, with
two possible results: (1) Purse Defect Investigation or (2) No action required.
In addition, selected information stored in ARTEMIS is subject to public disclosure.
Source: OIG analysis of ODI documentation.


Figure, Exhibit G. ODI Defect Screening and Investigation Process.
Defect Identification and Analysis. Defect analysts collect and analyze defect information to
identify safety defects. If no safety defect is found, the process ends. If sufficient defect
Information is compiled, the process continues to the Initial Evaluation Resumé.
Initial Evaluation Resumé. Defect analysts prepare Initial Evaluation (IE) Resumé to describe
safety defect information such as consumer complaints and industry reports. IE resumé is
forwarded through Defect Analysis Division Chief for final review and submitted to the Review
Panel.
Review Panel.        IE resumés (investigation proposals) presented to Review Panel for
consideration and evaluation. Panel collectively decides whether to proceed with an
investigation. If no investigation is warranted , the process ends. If additional information is
requested, process goes back to Initial Evaluation Resume. If a decision is to open an
Investigation, the Initial Evaluation becomes a Preliminary Evaluation.
Preliminary Evaluation. Investigator prepares Preliminary Evaluation (PE) Resumé to explain
reasons for the defect investigation. An investigation is opened. Information Request Letter sent
to manufacturer for specific defect information. Proceeds to Investigation Analysis.
Investigation Analysis. Investigator reviews and analyzes manufacturer defect information to
determine extent to which safety defect affects driving public. ODI Director and Division Chief
can decide to close PE investigation and the process ends. Otherwise, the PE can be upgraded to
Engineering Analysis. Additional information is requested from the manufacturer.
Engineering Analysis. Investigator reviews additional manufacturer information and performs
vehicle tests to answer detailed technical questions and determines cause of safety defect. ODI
Director and Division Chief can decide to close engineering analysis and the process ends.
Otherwise, ODI requests manufacturer to issue a Manufacturer Recall.
Source: ODI Office Procedures for Conducting Defect Investigations (1997), ODI Office
Procedures for Screening Complaints (1998), and ODI Initial Evaluation Review Panel
Procedures (2003).
Errata: Department of Transportation, Office of Inspector General
        Report Number MH-2004-088, Follow-up Audit on NHTSA's Office of
        Defects Investigation, dated September 23, 2004

Date of Errata: March 11, 2005

Page 16, Footnote 27 reads “over 400 deaths” but should read “over 200 deaths”.


This errata has been determined not to materially effect the Results and
Recommendations of this Report.
